<html>
<title> - H. RES. 544, CONGRATULATING THE PEOPLE OF THE UNITED MEXICAN STATES ON THEIR DEMOCRATIC ELECTIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


<DOC>


 
H. RES. 544, CONGRATULATING THE PEOPLE OF THE UNITED MEXICAN STATES ON 
                       THEIR DEMOCRATIC ELECTIONS

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2000

                               __________

                           Serial No. 106-175

                               __________

    Printed for the use of the Committee on International Relations


                               <snowflake>


Available via the World Wide Web: http://www.house.gov/international--relations

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
 68-484 CC                 WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                Caleb McCarry, Professional Staff Member
                    Marilyn C. Owen, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Res. 544, congratulating the people of the United 
  Mexican States on the success of their democratic elections on 
  July 2, 2000...................................................     1

                                APPENDIX

Text of H. Res. 544..............................................     6


H. RES. 544, CONGRATULATING THE PEOPLE OF THE UNITED MEXICAN STATES ON 
               THE SUCCESS OF THEIR DEMOCRATIC ELECTIONS

                              ----------                              


                         TUESDAY, JULY 25, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 2172 of the Rayburn Building, Hon. Doug Bereuter, 
presiding.
    Mr. Bereuter. Before we begin our hearing this morning we 
will take up one item of legislative business.
    We meet it open session, pursuant to notice, to mark up one 
resolution related to the recent Mexican elections.
    The Chair lays the resolution before the Committee. The 
clerk will report the time of the resolution.
    Ms. Bloomer. H. Res. 544, a Resolution congratulating the 
people of the United Mexican States on the success of their 
democratic elections held on July 2, 2000.
    Mr. Bereuter. Without objection, the preamble and operative 
language of the resolution will be read in that order, for 
amendment. The clerk will read.
    Ms. Bloomer. Whereas the United States and Mexico----
    [The resolution appears in the appendix.]
    Mr. Bereuter. Without objection, the resolution is 
considered as having been read, its open to amendment at any 
point.
    I recognize the gentleman from California, Mr. Gallegly, 
Chairman of the Subcommittee on the Western Hemisphere, to 
introduce the resolution.
    Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman. Mr. 
Chairman, I want to thank you for calling this markup, H. Res. 
544, which I, and many of our colleagues introduced, to 
recognize the success of Mexico's recent national elections.
    As the Members of this Committee know, just a few weeks ago 
Mexico held a general election, which in addition to being 
hailed as perhaps the most dramatic and historic election in 
Mexico's modern history, had been deemed by domestic and 
international electoral monitors as the freest, fairest, and 
most transparent election in Mexican history. For that fact 
alone, the Mexican people should be very proud.
    The election of Vicente Fox of the PAN party as the new 
President also marks the first transition of power in 71 years 
of one-party rule in Mexico's highest office.
    In recognition of these accomplishments, this resolution 
congratulates the Mexican people, government and political 
parties for their diligent work in bringing about major 
electoral reforms which led to the success of the July 2 
election. Members of Mexican civil society persistently and 
peacefully pressed for electoral reform by effectively engaging 
in public discourse to raise public awareness.
    The government of Mexico, under the leadership of President 
Zedillo, instituted several reforms in the areas of electoral 
oversight and campaign finance, effectively opening the door 
for a truly competitive multiparty election. The political 
parties of Mexico used these openings to vigorously participate 
in the electoral process, which resulted in broader 
representation and elevated the level of Mexico's democratic 
institutions.
    Last, this resolution congratulates President-elect Vicente 
Fox on his victory and reaffirms our indispensable and 
sustained relationship with Mexico.
    I urge my colleagues to join me in supporting H. Res. 544, 
which signifies not only our recognition of their successful 
elections but also our continued commitment to a more fruitful 
relationship with our important neighbor to the South.
    Mr. Chairman, thank you for the opportunity, and I yield 
back the balance of my time.
    Mr. Bereuter. I thank you very much, Mr. Gallegly.
    The Chair now recognizes distinguished Ranking Minority 
Member, the gentleman from Connecticut, Mr. Gejdenson, for such 
comments as he might have.
    Mr. Gejdenson. Thank you Mr. Bereuter. I join my 
colleagues. This historic change in Mexico, obviously the 
result of international pressure through the years, to have a 
real open democracy in Mexico, and the courage and persistence 
of independent groups, as well as the Mexican people, need to 
be commended here; but I think all of us have to focus very 
strongly on the rest of our hemisphere.
    In Venezuela, Peru, and Haiti democracy is under siege. In 
Venezuela we have seen the country with maybe the most 
consistent democratic institutions having a very difficult time 
today. Democratic institutions are being restricted, in a 
process that may actually decrease democratic involvement in 
that country.
    In Peru, the President's desire to remain in power, has 
basically taken away that country's process, and in many cases 
avoided their own laws on how the democratic process was 
supposed to work there, and has clearly taken away the trust of 
many voters.
    In Haiti the ruling party is so interested in solidifying 
its political power that it's willing to forego international 
assistance.
    So, as we commend Mexico, and recognize the strides that 
have been made there, in the democratic process, we need to be 
concerned in three other countries in Latin American, where we 
see democracy losing ground.
    Mr. Bereuter. Thank you very much, Mr. Gejdenson.
    The Chair recognizes himself.
    I want to commend, first of all, the distinguished Chairman 
from California, the Subcommittee Chairman for introducing this 
resolution.
    On July 2, 2000, the Mexican people, indeed, seem to have 
made a clear break with the past. Mexico has secured additional 
credibility for its democratic institutions and the people 
there look for a hopeful future.
    This is an extraordinary, peaceful transformation.
    President-elect Fox is rising, it would appear, to the 
tremendous task that awaits him with grace and seriousness.
    President Zedillo also deserves credit for his 
statesmanship in what happened before the election. We wish 
Mexico well in the transition period that will lead that 
country's first transfer of Presidential power from the PRI to 
an opposition party.
    Our nation has a historic opportunity that we must seize to 
establish a new positive and cooperative relationship with our 
neighbor to the South, Mexico.
    I urge unanimous support for the resolution.
    Are there other Members that wish to be heard on the 
resolution?
    Mr. Delahunt. Mr. Chairman?
    Mr. Bereuter. The gentleman from Massachusetts, Mr. 
Delahunt is recognized.
    Mr. Delahunt. Just briefly, I want to echo the sentiments 
that have been expressed by various Members, and congratulate 
the people of Mexico in this particular recent election. It is 
certainly a landmark, and a watershed, I believe, not just for 
Mexico but serves as a standard to be emulated by the rest of 
Central and Latin America.
    I would just note that I heard my friend, and my Ranking 
Member, Mr. Gejdenson, refer to Haiti, and Peru, and Venezuela. 
I think it should be noted, however, that in Venezuela there 
are elections this coming weekend, and all reports are that 
they will be free, fair, and conducted appropriately.
    And, in fact, I think we should note that in Venezuela 
there have been, in the course of the past year, a series of 
elections, all of which have been free, not flawed, and fair, 
and we should welcome that.
    I know many are concerned about the rhetoric of the 
campaign, but I think it's important to note that come 
September and October in this country I expect the rhetoric to 
rachet up somewhat. It will probably be equal to what we have 
heard in the Venezuelan elections.
    So, I just would make that statement, and yield back.
    Mr. Bereuter. Thank you very much, Mr. Delahunt. Are there 
further Members seeking recognition?
    If not, then, without objection, the Chair will be 
requested to seek consideration of the pending matter on the 
suspension calendar.
    Is there objection?
    Hearing none, it is so ordered, without objection.
    The Chair is directed to make motions under rule 22 with 
respect to a conference on this measure, or a Senate 
counterpart. Further proceedings on this matter are postponed.
    We will now recess for just a minute, until the panel for 
the hearing arrives at the table.
    [Whereupon, at 10:15 a.m., the markup was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 25, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8484.001
    
    [GRAPHIC] [TIFF OMITTED] T8484.002
    
    [GRAPHIC] [TIFF OMITTED] T8484.003
    
                                 <all>

</pre></body></html>
